                                                      OFFICE OF NESTIGATIONS

                                             CLOSEOUT MEMORANDUM




          A proactive review found what appeared to be copied text in an NSF proposal submitted by the
          subject.' The alleged copied text came from a website2that was directed by the subject.
          Therefore, the subject was one of the authors of the text and, as such, could use the text without
          citation, although it would have been better if the subject had fully cited the source of the text.

          This case is closed and no further action will be taken.




I'
NSF OIG Fonn 2 (1 1/02)
